USCA4 Appeal: 18-6898

Doc: 59

Filed: 07/17/2020

Pg: 1 of 3

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-6898

ANTHONY QUENTIN KELLY,
Petitioner - Appellant,
v.
WARDEN FRANK B. BISHOP, JR.; JOHN MCCARTHY, State Attorney;
ATTORNEY GENERAL OF MARYLAND,
Respondents - Appellees.

Appeal from the United States District Court for the District of Maryland, at Baltimore.
Richard D. Bennett, District Judge. (l:17-cv-02065-RDB)

Submitted: June 26, 2020

Decided: July 17, 2020

Before GREGORY, Chief Judge, MOTZ, Circuit Judge, and TRAXLER, Senior Circuit
Judge.

Dismissed by unpublished per curiam opinion.

Anthony Quentin Kelly, Appellant Pro Se. Jer Welter, OFFICE OF THE ATTORNEY
GENERAL OF MARYLAND, Baltimore, Maryland, for Appellee.

Unpublished opinions are not binding precedent in this circuit.

USCA4 Appeal: 18-6898

Doc: 59

Filed: 07/17/2020

Pg:2of3

PER CURIAM:
Anthony Quentin Kelly seeks to appeal the district court’s order denying relief on
his 28 U.S.C. § 2254 (2018) petition.* The order is not appealable unless a circuit justice
or judge issues a certificate of appealability. See 28 U.S.C. § 2253(c)(1)(A) (2018). A
certificate of appealability will not issue absent “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2) (2018). When the district court denies relief
on the merits, a prisoner satisfies this standard by demonstrating that reasonable jurists
could find the district court’s assessment of the constitutional claims debatable or wrong.
See Buck v. Davis, 137 S. Ct. 759, 773-74 (2017). When the district court denies relief on
procedural grounds, the prisoner must demonstrate both that the dispositive procedural
ruling is debatable and that the petition states a debatable claim of the denial of a
constitutional right. Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012) (citing Slack v.
McDaniel, 529 U.S. 473, 484 (2000)).
We have independently reviewed the record and conclude that Kelly has not made
the requisite showing. Accordingly, we deny a certificate of appealability, deny Kelly’s
motions for judgment, and dismiss the appeal. We dispense with oral argument because

* We previously remanded to the district court for a determination of the timeliness
of Kelly’s notice of appeal. The district court found that the notice was timely, and we find
that conclusion was not clearly erroneous. Accordingly, we now consider the merits of
Kelly’s appeal.
2

USCA4 Appeal: 18-6898

Doc: 59

Filed: 07/17/2020

Pg:3of3

the facts and legal contentions are adequately presented in the materials before this court
and argument would not aid the decisional process.
DISMISSED

3

USCA4 Appeal: 18-6898

Doc: 63

Filed: 09/08/2020

Pg: 1 of 1

FILED: September 8, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-6898
(1:17-CV-02065-RDB)

ANTHONY QUENTIN KELLY
Petitioner - Appellant
v.

WARDEN FRANK B. BISHOP, JR.; JOHN MCCARTHY, State Attorney;
ATTORNEY GENERAL OF MARYLAND
Respondents - Appellees

ORDER

The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Chief Judge Gregory, Judge Motz, and
Senior Judge Traxler.
For the Court
/s/ Patricia S. Connor, Clerk

Case l:17-cv-02065-RDB Document 27 Filed 04/12/18 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND

ANTHONY QUINTIN KELLY, #352736
Petitioner,
v.

*

WARDEN FRANK B. BISHOP, JR., et al.

CIVIL ACTION NO. RDB-17-2065

*

*****

ORDER
For reasons set out in the accompanying Memorandum Opinion, it is this

day of

April, 2018, by the United States District Court for the District of Maryland hereby ORDERED
that:
1.

Anthony Quintin Kelly’s Emergency Motion for a Speedy Ruling (ECF No. 12) is
DENIED;

2.

Kelly’s Emergency Motion for Release (ECF No. 13) is DENIED;

3.

Kelly’s Emergency Motion for Partial Judgment (ECF No. 14) is DENIED;

4.

Kelly’s Emergency Motion for Evidentiary Hearing (ECI No. 15) is DENIED

5.

Kelly’s Emergency Motion to Reassign Case to a Different Judge (ECF No. 16),
construed as a motion for recusal, is DENIED;

6.

The Court DECLINES to issue a Certificate of Appealability;

7.

The Clerk SHALL CLOSE this case; and

8.

The Clerk SHALL SEND a copy of this Order and Memorandum Opinion to
Kelly and to counsel for Respondents.

RICHARD D. BENNETT
UNITED STATES DISTRICT JUDGE

